IN THE SUPREME COURT OF THE UNITED STATES

Case No. 21-
IN re JUAN L. LEONOR,
LEAVE FOR PERMISSION TO FILE A
Petitioner.
WRIT OF HABEAS CORPUS PETITION

IN EXCESS OF THE PAGE LIMIT

TO THE UNITED STATES SUPREME COURT AND/OR UNITED STATES SUPREME COURT
JUSTICE CLEARENCE THOMAS:

COMES NOW, Juan Luis Leonor, petitioner, pro se, and pursuant to
S.Ct. Rule 33.1(d) and S.Ct. Rule 22, hereby respectfully requests for
leave for permission. to file a writ of habeas corpus in excess of the
page limit. Petitioner offers good cause for such a request:

1. My intent is to file before the Court a writ of Habeas
Corpus Petition invoking the Court’s discretionary powers under S.Ct.
Rule 20. 4(a).

2. The page limitation allowed by the Supreme Court Rules is 40
pages. See S.Ct. Rule 33.2. (b).

or I am acting pro se, without the assistance of an attorney or
anyone instructed in the law.

4. My native and first language is Spanish.

5. LI.am incarcerated, and during my incarceration I have learned
how to write and read the English Language, but I still struggle with

composition and grammar, and with well and fair thought arguments.
6. The S.Ct. Rule 20. 4(a), requires of me to address the
requirements of 28 U.S.C. 2241 and 2242, that is, “reasons for not
making application to the district court of the district in which” I
am held, see S.Ct. Rule 20. 4(a) (original quotations), the showing of
“exceptional circumstances” to justify the granting of a writ of
habeas corpus, and why “adequate relief cannot be obtained in any
other form of from any other court.” Id.

7. In addition, S.Ct. Rule 20.2, requires that “[{a]11 conten-
tions in support of the petition shall be included in the petition.”
Id.

8. Within my petition, I am addressing each and every requi-
rement under S.Ct. Rule 20.

9. I have read and re-read many times my arguments and allega-
tions within my petition of a writ of habeas corpus, and I cannot find
a better and concise way to fully address the Court beyond the 40 page
limitation, which is partly related to the complexity of the issues
included within my petition.

10. The page count of my petition for a writ of habeas corpus
is, 54 pages. Thus, the leave of the Court requested is for
permission to file my petition with 14 additional pages.

THEREFORE, the Petitioner respectfully requests that permission
to file his petition for a writ of habeas corpus with 14 pages in

excess of the page limit be granted.
odd
Respectfully submitted on msde ey of, duns » 2021, by,

 

arate” Correctional Youth Facility
2610 N. 20th East
Omaha, Nebraska 68110

DECLARATION OF FILING AND SERVICE

I am an inmate confined in a correctional institution (Nebraska Correctional
Youth Facility). Today \,»~Ad-2-1, I am depositing the Request for Leave of the
Court to File a Petition for a Writ of Habeas Corpus in excess of page limit
in this case in the institution's internal mail system, to be mailed out to the
Clerk of the United States Supreme Court, 1 First Street, N.E., Washington, DC
20543-3001, and to Douglas Peterson, Nebraska Attorney General (the attorney for
Scott Frakes, director of Nebraska Correctional Services, the person detaining me),
2115 State Capitol Bldg., Lincoln, Nebraska 68509-8920. First-class postage
is being prepaid either by me or by the institution on my behalf. The service
is done through U.S. Mail Service.

I declare under penalty of perjury that the foregoing is true and correct.

paTED: p- AA” Al.

    

lebraska Correctional Youth Facility
2610 N. 20th East
Omaha, Nebraska 68110
